State of New Jersey

PHILIP D. MURPHY

OFFICE OF THE ATTORNEY GENERAL
DEPARTMENT OF LAW AND PUBLIC SAFETY
DIVISION OF LAW

Governor

SHEILA Y. OLIVER

25 MARKET STREET

Lt. Governor

PO Box 112

TRENTON, NJ 08625-0112

GURBIR S. GREWAL
Attorney General

MICHELLE L. MILLER
Director

July 2, 2021
VIA ELECTRONIC FILING
Hon. Scott S. Harris, Clerk of the Court
Supreme Court of the United States
One First Street, N.E.
Washington, D.C. 20543
Re:

Association of New Jersey Rifle & Pistol Clubs, Inc. et al., v. Gurbir S.
Grewal, Attorney General of New Jersey, et al., No. 20-1507

Dear Mr. Harris:
Respondent, New Jersey Attorney General Gurbir S. Grewal, writes to request a 30-day
extension to file a response to the petition for certiorari in the above-captioned matter. See Sup.
Ct. R. 30.4. The petition was filed on April 26, 2021. Respondent filed a timely waiver on May
28, 2021. On June 11, 2021, this Court requested a response to the petition. The response to the
petition is currently due on or before July 12, 2021. An extension of time of 30 days to file a
response will create a new due date of August 11, 2021. Petitioners have consented to this request.
This is Respondent’s first request for an extension, which is necessary to ensure that
Respondent can review and provide a thorough and appropriate response to the petition because
of the assigned attorneys’ respective obligations to manage heavy caseloads.
We thank you in advance for your consideration of this request.
Respectfully submitted,

cc:

Paul D. Clement, Esq. (via electronic filing)

HUGHES JUSTICE COMPLEX • TELEPHONE: (609) 376-2960 • FAX: (609) 633-7494
New Jersey Is An Equal Opportunity Employer • Printed on Recycled Paper and Recyclable

